<html>
<title> - IRAN AND SYRIA: NEXT STEPS, PART II</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                  IRAN AND SYRIA: NEXT STEPS, PART II 

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 14, 2011

                               __________

                           Serial No. 112-76

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                               ___________

                         U.S. GOVERNMENT PRINTING OFFICE 

70-667 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

































                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director






























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Wendy R. Sherman, Under Secretary for Political 
  Affairs, U.S. Department of State..............................     9
The Honorable David S. Cohen, Under Secretary for Terrorism and 
  Financial Intelligence, U.S. Department of the Treasury........    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Wendy R. Sherman: Prepared statement...............    11
The Honorable David S. Cohen: Prepared statement.................    33

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    73
Written responses from the Honorable Wendy R. Sherman to 
  questions submitted for the record by the Honorable Brad 
  Sherman, a Representative in Congress from the State of 
  California.....................................................    75
Written responses from the Honorable Wendy R. Sherman to 
  questions submitted for the record by the Honorable David 
  Rivera, a Representative in Congress from the State of Florida.    79


                  IRAN AND SYRIA: NEXT STEPS, PART II

                              ----------                              


                        FRIDAY, OCTOBER 14, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    Before we proceed with this hearing, I would like to say a 
few words and invite my friend, Mr. Berman, to do so as well, 
in noting the passage of Deputy Assistant Secretary Dibble, who 
was responsible for Iran within the Bureau of Near Eastern 
Affairs.
    Mr. Dibble was a long-serving member of the Foreign 
Service, having arrived in Beirut the day after the 1983 
bombing. He subsequently served in Saudi Arabia, Tunisia, 
Pakistan, and as the deputy chief of missions in Damascus and 
was previously principal deputy assistant secretary in the 
Bureau of International Organizations. His service to his 
country over many decades was exemplary and serves as a model 
for successive generations of Foreign Service and civil 
officers to follow.
    I know I speak on behalf of all members of the Foreign 
Affairs Committee when I express our deepest condolences and 
sympathies to Mr. Dibble's wife, Liz, and their children. They 
are in our thoughts and in our prayers.
    And I would like to turn to the ranking member, Mr. Berman 
for his statement on this.
    Mr. Berman. Well, thank you very much, Madam Chairman.
    The fact is Philo Dibble was one of the Department's true 
experts on the Middle East. In fact, the Department lured him 
out of retirement to take on the highly sensitive post of 
deputy assistant secretary with responsibility for Iran. One of 
his final achievements was the successful coordination of the 
diplomatic effort that led to the release from Iranian 
captivity of American hikers Shane Bauer and Josh Fattal just 
last month.
    He was an exemplary officer, intelligent, honest, direct, 
and decent in every way, his passing all too untimely. The 
turnout at his memorial service from the secretary on down 
shows he was both respected and beloved. He will be missed by 
those on the Hill who knew him and worked with him.
    His wife, Liz, is principal deputy assistant Secretary of 
State for Near Eastern Affairs, a position Philo himself held 
some years ago. Together, they have been a remarkable Foreign 
Service couple, talented, successful, and fully committed to 
the service of this Nation.
    So I join you in extending condolences to Liz and the 
children and the State Department family.
    Chairman Ros-Lehtinen. I thank the gentleman for his 
remarks.
    I will tell the members and the audience--and thank you to 
our friends for joining us this morning--that I will recognize 
myself and the ranking member for 7 minutes each for our 
opening statements on today's hearing topic. I will then 
recognize the chairman and the ranking member of the Middle 
East and South Asia Subcommittee for 3 minutes each for their 
statements, and I regret that I don't think that we will have 
time to recognize members for the 1-minute opening statements 
due to votes that will interrupt our hearing and we will come 
back.
    We will then hear from our witnesses, and I would ask that 
you summarize your prepared statements in 5 minutes each before 
we move to the questions and answers with members under the 5-
minute rule.
    So, without objection, the witnesses' prepared statements 
will be made a part of the record, and members may have 5 days 
to insert questions and statements for the record subject to 
length limitation in the rules.
    The Chair now recognizes herself for 7 minutes for an 
opening statement.
    Today's hearing is part of a broader oversight effort by 
the committee to examine U.S. policy options to address the 
twin threats presented by Iran and Syria. On October 11, 2011, 
the United States approach to the Iranian regime should have 
undergone a major change. On that day, it was revealed that the 
Iranian regime was actively planning an attack on a foreign 
diplomat in the United States and was willing and able to kill 
and maim innocent Americans in the process.
    Secretary of State Hillary Rodham Clinton noted in an 
Associated Press interview that this plot ``crossed the line 
that Iran needs to be held accountable for.'' Yet it was 
revealed in yesterday's New York Times and reinforced by the 
testimony of our witnesses before the Senate banking committee 
yesterday that the administration does not plan to alter its 
course of pressure and persuasive engagement with the Iranian 
regime.
    Via the failed plot, it became clear for any who still had 
their doubts that the Iranian regime would use all available 
options to threaten U.S. security, our interests, and our 
allies. They brought the battle to our homeland, but our policy 
response is to essentially remain the same?
    Let me be blunt. This planned murder for hire must serve as 
a wake-up call regarding the determination and capability of 
the Iranian regime. If the regime feels secure enough in 
planning a U.S.-based attack now, imagine how much more blatant 
its aggression will be if it had nuclear weapons.
    This lesson is not lost on the Syrian regime, whose state-
appointed mouthpiece has warned Western countries against 
intervention in Syria, including threats to retaliate with 
suicide bombings in their countries. These are not idle threats 
from Damascus. One needs only to recall that not too long ago 
Syria was caught red-handed pursuing nuclear weapons 
capabilities; and, most recently, a Syrian spy was arrested 
after targeting in the United States American citizens of 
Syrian-origin opposed to the regime.
    So I kindly and respectfully ask Under Secretary Sherman 
what action do you intend to take to hold Iran to account, and, 
in so doing, send a clear message to the Syrian regime that we 
will not tolerate actions that threaten our Nation?
    We also cannot rely on the United Nations to provide an 
adequate deterrent to Iran. If after a plot to kill Americans 
and foreign diplomats in Washington the administration's 
response is to return to the United Nations Security Council 
and plead with Moscow and Beijing to permit a resolution 
slapping Iran's wrist, then the message sent to the regime in 
Tehran will be that there will be no cost for any outrage that 
it may commit.
    Working with responsible nations, democratic allies to 
increase pressure on Iran is one thing. But waiting for the 
U.N. to do what is right as the threats from Iran and Syria 
grow is foolhardy and dangerous.
    Russia and China showed their true colors last week in the 
Security Council when they vetoed a resolution rebuking Syria's 
Iran-backed dictatorship for its assaults on its unarmed 
population. They will still form an impassable obstacle to 
effective multilateral action on Iran.
    The draft Syria resolution was reportedly watered down 
multiple times and only hinted at the possibility of sanctions, 
all in an attempt to placate Moscow. But Russia vetoed it 
anyway.
    Instead of begging for help, we need a realistic policy 
that reflects the urgency and the multifaceted nature of the 
Iranian threat. We also need a policy that goes beyond merely 
sanctioning individuals in the Assad regime to one that 
provides a comprehensive strategy toward Syria.
    Last year, Congress took a major step forward in the 
Comprehensive Iran Sanctions Accountability and Divestment Act 
of 2010. We are again taking the lead with the Iran Threat 
Reduction Act, which I authored along with Ranking Member 
Berman and with significant input from Mr. Sherman, Mr. Deutch, 
and many other members of our committee. It now enjoys the 
support of more than 320 co-sponsors in the House.
    I have worked closely with Mr. Engel in authoring the Syria 
Freedom Support Act, with Mr. Sherman in authoring the Iran, 
North Korea, and Syria Non-Proliferation Reform and 
Modernization Act, which, combined, would require additional 
crippling sanctions on both the Iranian and Syrian regimes.
    For U.S. and global security, these regimes must be made to 
understand that the cost of their aggressive actions will be 
too great for them to bear and that they must immediately 
abandon their nuclear weapons program, their unconventional 
weapons and ballistic missile development, and support for 
violent extremists, and the repression of their own people. The 
time is now.
    I now turn to my good friend, Mr. Berman, for his opening 
statement.
    Mr. Berman. Well, thank you very much, Madam Chairman. 
Thank you for holding this hearing.
    I want to go off script for just a moment.
    Nothing we do, nothing any administration has been doing, 
can truly be deemed effective with respect to Iran until Iran 
stops its nuclear weapons program, ends its support for 
terrorism, and in the real, longer-term sense, becomes a 
government that represents its people.
    But I simply have to say at the beginning, there is no 
administration that has spent more time, more focus, and been 
more effective in assembling the kind of international 
coalition to stop Iran from getting a nuclear weapon than this 
administration. The fact that on any given day they do not 
announce to the world the exact details of a response to a 
particularly heinous action is not evidence that it is business 
as usual, they don't care, they are not--they are not going to 
do anything. And I do think it is unfair to leave an impression 
that this administration is not deeply focused on the goal that 
we share.
    I mean, yesterday, we disagreed about nothing. The great 
thing about this subject matter in this committee is, on this 
issue, you and I and I think Democrats and Republicans are of 
common mind and deeply committed both to the importance of 
achieving that goal and achieving that goal before Iran crosses 
that very dangerous threshold.
    And I just wanted to make those comments initially and then 
try to shorten the rest of my remarks here. Because we are 
sickened by what Iran--their twisted and despicable plot to 
assassinate the Saudi Ambassador and possibly bomb the Israeli 
and Saudi Embassies.
    And you are right. The involvement of the Quds Force is 
telling. This scheme was not hatched by some rogue operator but 
by a very elite unit of the Iranian Revolutionary Guard Corps, 
the very essence of the regime.
    Iran and Syria do form the heart of Middle Eastern anti-
Americanism and Middle East terrorism. Syria is Iran's forward 
operating base in the Arab world. Iran is Syria's major 
external supporter, helping the Assad regime murder the Syrian 
people now fighting for their freedom.
    We share the concerns about both regimes. Broadly speaking, 
we have used the same tools to deal with threats coming from 
Iran and from Syria, namely sanctions; and those sanctions have 
been at least partially successful. They haven't yet achieved 
the goal. Financial sanctions on Iran have complicated Iran's 
ability to do business in the world, including selling its oil, 
the industry that produces 90 percent of Iran's revenue. The 
legislation we authored last Congress, CISADA, has led to a 
significant decline in Iran's ability to purchase refined 
petroleum and a near halt in the development of their oil and 
gas industries.
    Just this week, the International Air Transport Association 
announced that Iran's national airline would no longer be 
included in worldwide ticketing networks because of sanctions-
related complications.
    The message to Iranians is clear. Their government's 
illegitimate nuclear policies are undermining their prosperity 
and isolating them from the international community.
    Syria's situation is more desperate than Iran's and likely 
to become even more so when the EU boycott of Syrian oil fully 
kicks in next month. The Syrians claim they have 2 years worth 
of foreign currency reserves. Most experts believe they will be 
out of cash well before that.
    Despite these successes, it is increasingly apparent that 
current levels of sanctions aren't enough to get the job done 
quickly in Syria or to get it done at all in Iran.
    In Syria, more pressure is needed. Turkey, a major Syrian 
trading partner, has significantly modified its decade-old 
policy of intimacy with Assad, but it has not yet implemented 
the sanctions it has pledged.
    Syria's other major trading partner, Iraq, unfortunately 
continues to support the Syrian regime. If Assad is to be 
removed soon, as we all desire, we need more pressure from 
Syria's neighbors.
    As for Iran, although knocked off balance by sanctions, its 
economy is far from broken thanks to high global oil prices. 
The Iranian nuclear program continues to progress rapidly. The 
threat has grown more urgent than ever. The most recent 
inspection report by the IAEA shows that Iran's stockpiles of 
low enriched uranium continue to grow. It has been concluded by 
one respected analysis that Iran now has almost enough low 
enriched uranium to produce four nuclear weapons. If it were to 
kick out international inspectors and further refine this 
material to weapons grade levels, Iran could then produce its 
first bomb within 6-12 months and several more in the year 
after that. They are installing centrifuges six times as 
efficient as the current model in a large enrichment facility 
in Natanz. This could reduce Iran's breakout time to 2-3 
months.
    There are additional steps that must be taken; and in 
particular, our bill, the Iran Threat Reduction Act, will 
tighten the screws further. I know we will be marking that bill 
up soon.
    Another is stricter enforcement of current sanctions, and I 
look forward to a more vigorous enforcement from an 
administration which I know shares our goals.
    Two examples: The Iranian Revolutionary Guard Corps owns a 
company that controls virtually every port in Iran, yet I have 
not heard that we are sanctioning ships that use that company's 
port services, as CISADA requires. President Ahmadinejad and 
many other senior officials who are guilty of the worst human 
rights abuses in Iran have not been sanctioned under CISADA. 
These are but two of many possible sanctions that could be 
imposed.
    Another important step would be a decision by the Gulf Arab 
states, perhaps the states most directly threatened by Iran, as 
the plot revealed this week should remind them, to ramp up 
their oil exports. That would result in ramping down oil prices 
and would significantly diminish Iran's income.
    Can I have unanimous consent for an additional minute?
    Chairman Ros-Lehtinen. Absolutely. Yes, the gentleman is 
given the time.
    Mr. Berman. Our best hope for slowing the Iranian nuclear 
train is to bring its financial machinery to a grinding halt, 
and sanctioning banks and companies in other countries that do 
business with Iran's central bank would have a uniquely 
powerful impact on the Iranian economy. That is why I think the 
most dramatic measure we could take in terms of this 
legislation is designating Iran's central bank as a facilitator 
of terrorism and the development of weapons of mass 
destruction.
    Until now, we have sanctioned only Iranian banks that were 
directly tied to terrorism or weapons of mass destruction 
proliferation. But having peeled away the skin of the onion, it 
is now clear that at the core of this banking network sits the 
central bank, the ultimate enabler for all Iranian terrorism 
and WMD proliferation.
    For years, there has been speculation about whether a 
nuclear-armed Iran would actually use the bomb. As the 
revelation of the Washington bombing plot underscores, we know 
that nothing is beyond the realm of possibility regarding 
Iran's willingness to employ violence in pursuit of its 
objectives and to do so in the most vicious and amoral fashion. 
I cannot conceive of a more irresponsible or frightening finger 
on the nuclear button than that of the Iranian regime.
    I appreciate the courtesies you have given me of that 
additional time, and I yield back.
    Chairman Ros-Lehtinen. I thank the gentleman. Perhaps if I 
didn't agree with your policy suggestions, I wouldn't have 
given you that extra time. The beginning was a little weak, but 
the end was great.
    I am pleased to yield 3 minutes to the subcommittee chair 
of the Middle East and South Asia Subcommittee, Mr. Chabot of 
Ohio.
    Mr. Chabot. Thank you, Madam Chairman; and thank you for 
calling this timely and important hearing.
    Since taking office, the Obama administration's policy 
toward Iran and Syria has been characterized chiefly by its 
engagement with the ruling regimes. Whether or not that was the 
right policy at the time, the situation we face today with 
respect to these two countries is vastly different than it was 
back in January 2009.
    Recent actions make this conclusion irrefutable. Damascus 
is not only continuing to arrest, beat, torture, and murder its 
way through the current protests, but it is now exporting its 
brutality to Lebanon in flagrant violation of international 
law. Over the past several weeks, the Syrian army has on 
numerous occasions violated Lebanese territorial sovereignty. 
One recent incursion culminated in the death of a Lebanese 
farmer after Syrian armored vehicles allegedly penetrated 
approximately 2\1/2\ miles into Lebanese territory in clear 
violation of U.N. Security Council Resolutions 1559 and 1701. 
Meanwhile, Tehran, as we all know, plotted to assassinate the 
Saudi Ambassador to the U.S. on American soil.
    The actions by both regimes show a disdain for 
international law and norms that is incompatible with the 
values and interests of the United States. Plainly speaking, 
the blood on their hands and the impunity with which they 
continue to act shows that these regimes are beyond salvation.
    But anyone who is surprised that the thugs in Tehran and 
Damascus would take these actions has been living in a 
dangerous state of denial. Both regimes continue to respond to 
carrots and sticks alike with ridicule as they mock the 
legitimate concerns of the international community.
    From the outside, however, it appears that this 
administration's policies have remained distressingly 
unresponsive. In the case of Iran, for example, I am concerned 
that there are still those in the administration who hold out 
hope of a grand bargain on the nuclear program. It is long past 
time to jettison this dangerous fantasy as it is presently 
warping our entire policy toward the region.
    There is no question that the illicit Iranian nuclear 
program must remain at the top of our priority list. The 
nuclear program is, however, a symptom of the disease, rather 
than the disease itself. I want to be clear: The Iranian 
nuclear program is a paramount challenge to U.S. core national 
security interests as well as those of our allies, and it must 
be addressed. But to speak of the nuclear program independently 
of the regime which pursues it is in effect putting the cart 
before the horse. A nuclear program is not in and of itself 
what makes the regime nefarious. It is the perverse nature of 
the regime that makes the nuclear program so dangerous.
    It is for this reason that it is time to close the door on 
engagement with the regime in Tehran and call for its 
departure. Not only has the regime shown itself unwilling to 
budge, but continued engagement only risks abandoning and 
alienating the Iranian people who I hope--sooner rather than 
later--will be in the driver's seat.
    I yield back.
    Chairman Ros-Lehtinen. Thank you very much to the gentleman 
from Ohio.
    The ranking member on that subcommittee, Mr. Ackerman, of 
New York is recognized for 3 minutes.
    Mr. Ackerman. The single question I have for the witnesses 
regarding Iran today is, what is left?
    Because unless you have means to apply more pressure to 
Iran diplomatically, politically, and economically, we are near 
the point where other options will have to be considered. For a 
variety of reasons, I think we would all like to avoid those 
options if we can.
    Thanks to the good work done by the previous Congress and 
with the support of the Obama administration, we have massively 
increased the pressure applied by American economic and 
particularly financial sanctions. Picking up where the Bush 
administration left off, President Obama and Secretary Clinton 
did tremendous work to build a new consensus now enshrined in a 
U.N. Security Council Resolution to isolate Iran diplomatically 
and to restrict many of its avenues of trade. But those efforts 
are, frankly, not enough. The pressure on Iran has gone up, but 
this new heightened pressure is nowhere near the point of 
forcing the ayatollahs to deal away their nuclear capabilities.
    What kind of pressure would suffice? It is hard to predict, 
but here is what I would like to see.
    The Iranian central bank and the entire Iranian banking 
sector need to lose whatever capacity they retain to facilitate 
Iran's international commerce and trade. These institutions 
sustain Iran's criminal regime, underwrite terror, and 
facilitate Iran's illicit WMD programs.
    Let us be clear. Sanctions have to hurt. If they don't 
hurt, they are not effective. The goal is not for us to pat 
ourselves on the back and issue press releases here. It is to 
inflict crippling economic pain over there. Iran's banking 
sector needs to become the financial equivalent of Chernobyl--
radioactive, dangerous, and, most of all, empty.
    Other countries may object to this approach. Our response 
to them should be simple and frank. Either assist us in 
cranking up the pressure on Iran by economic and financial 
means, or accept that the United States and other like-minded 
states will be compelled to deal with Iran's unresolved nuclear 
issues by other means.
    It has been 10 years since the Bush administration revealed 
Iran's secret enrichment capabilities, and the threat has only 
grown since then. Iran's efforts to acquire the means to 
produce nuclear arms must be stopped. President Obama told the 
nation that he would use all possible means at his disposable 
to prevent Iran from crossing the nuclear arms threshold. I 
would say there are still means that are yet unused, and we 
need to use them now.
    Finally, I would like to express my deep dismay about the 
administration's truly pathetic and inadequate execution of the 
Iran human rights protections provisions passed into law last 
year. I refuse to believe that the State Department, after 
exhaustively examining Iran's massive machinery of repression, 
torture, rape, and murder can only identify 14 Iranian 
officials to be targeted by human rights sanctions. Here is a 
bunch more. Iranian officials could do a lot better and, 
frankly, a group of Iranian boy scouts could even do better.
    This abject failure to execute the law is totally 
unacceptable; and I would like to ask you, Secretary Sherman, 
if you would carry this letter, which, unlike the State 
Department, actually names of a bunch of Iranian officials. And 
if you would please deliver this to Secretary Clinton.
    Chairman Ros-Lehtinen. Thank you. If someone could grab 
that from Mr. Ackerman.
    I didn't mean you, Mr. Mack.
    Does the gentleman yield back?
    Mr. Ackerman. Yes, thank you.
    Chairman Ros-Lehtinen. Thank you. Thank you very much.
    The Chair is pleased to welcome our witnesses.
    Ambassador Wendy Sherman is a good friend of our committee. 
Welcome back.
    She was sworn in as Under Secretary of State for Political 
Affairs in September of this year. Prior to this position, 
Under Secretary Sherman served as vice chair of the Albright 
Stonebridge Group, a global strategy firm and a member of the 
investment committee of Albright Capital Management, an 
affiliated investment advisory firm focused on emerging 
markets.
    Ambassador Sherman served as Counselor for the State 
Department from 1997 to 2001, as well as Special Advisor to 
President Clinton and Policy Coordinator on North Korea. From 
1993 to 1996, under Secretary of State Warren Christopher, she 
was Assistant Secretary for Legislative Affairs.
    Our next witness is the Honorable David Cohen, who was 
confirmed by the United States Senate to serve as Treasury's 
Under Secretary for Terrorism and Financial Intelligence in 
June of this year. Prior to his current position, Under 
Secretary Cohen served as the Department of Treasury's 
Assistant Secretary for Terrorist Financing.
    We welcome you both, and your written statements will be 
made a part of the record.
    We will begin with you, Ambassador Sherman.

 STATEMENT OF THE HONORABLE WENDY R. SHERMAN, UNDER SECRETARY 
        FOR POLITICAL AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Sherman. Thank you very much, Madam Chairman. It is 
always a pleasure to be here. So thank you.
    Ranking Member Berman, distinguished members of the 
committee, I appreciate the invitation to appear before you 
today to discuss our goals, our whole-of-government approach 
with regard to Iran and Syria, and the strategy we are 
implementing to achieve them.
    Before I start, I would like to add my own dedication of 
this testimony to Philo Dibble, who, as the chairwoman and Mr. 
Berman said, passed away unexpectedly 2 weeks ago. He was a 
dedicated Foreign Service Officer and was the heart of our Iran 
team, and he is sorely missed.
    Let me comment first, and briefly, on the conspiracy to 
assassinate the Saudi Ambassador in Washington that was 
directed by elements of the Iranian Government. As the 
Secretary and the President have said, this plot was a flagrant 
violation of international law and a dangerous escalation by 
Iran. I am deeply grateful to our law enforcement and 
intelligence professionals who probably saved the lives of 
scores of bystanders, along with the life of an ambassador. The 
regime must be held accountable for its actions.
    Just this week, as Under Secretary Cohen will explain, the 
administration quickly designated five individuals, adding to a 
growing list of sanctioned individuals and entities. We are 
hard at work, meticulously and rationally laying out the facts 
of this plot. All countries should deny Quds Force officers any 
platform to operate within their territory and work with us 
even harder to enforce all sanctions already on the books.
    This administration is committed to addressing the 
continued threat posed by the Iranian regime's nuclear 
ambitions, its support for international terrorism, its 
destabilizing activities in the region, and its human rights 
abuses at home.
    American policy regarding Iran remains unambiguous. First 
and foremost, we must prevent Iran from developing nuclear 
weapons. Its illicit nuclear activity is one of the greatest 
global concerns our country faces, and we will continue to 
increase the pressure, as the President said yesterday, as long 
as the Iranian regime refuses to engage the international 
community with seriousness or sincerity.
    We now have the toughest sanctions package in three 
decades. Since the passage of CISADA, we have imposed 
additional sanctions on a growing list of individuals and 
entities responsible for Iran's expanding scope of unauthorized 
activities. These sanctions have raised the cost, time, and 
energy required for Iran to pursue its current course and 
provided a platform upon which the European Union, Norway, 
Australia, Canada, South Korea, Switzerland, and Japan 
implemented strict measures of their own.
    In the aftermath of our calls on the conspiracy, as 
Secretary Cohen will elaborate, the EU just today sanctioned 
Iran's commercial bank.
    Using CISADA, we have designated eleven individuals and 
three entities for human rights violations, and we continue to 
compile more information. I appreciate, Congressman Ackerman, 
your list and evidence that will allow us to identify more 
murderers, torturers, and religious persecutors.
    The second topic of this hearing is Syria, which depends 
more and more on Iran for support as it becomes further 
isolated from the international community. The Syrian regime 
has responded to the calls for Assad to step aside with hollow 
promises of reform, conspiracy theories, and escalating 
violence.
    In its effort to cling to power, the regime is executing a 
deliberate and bloody strategy of channeling peaceful protest 
into armed insurrection. Its brutal actions have resulted in 
over 3,000 deaths and many more thousands of cases of assault, 
arbitrary detention, and torture since the unrest began in 
March.
    The regime is also stroking the fears of Syria's minority 
communities with blatant propaganda.
    Make no mistake, the regime is responsible for the cycle of 
violence and sectarianism.
    We have pursued targeted financial measures to increase 
pressure on the Syrian regime and its corrupt business cronies. 
On August 18th, President Obama signed a new executive order 
that blocks the property of the Syrian Government, bans U.S. 
persons from new investments in or exporting services to Syria, 
and bans U.S. imports of and other transactions or dealings in 
Syrian origin, petroleum, or petroleum products. These are some 
of the strongest sanctions the U.S. Government has imposed 
against any country in the world.
    Europe's actions to ban the purchase of Syrian petroleum 
products, the regime's most important source of foreign 
exchange, will have a significant impact.
    Actions by the United States and the world community to 
counter Iran and Syria's domestic, regional, and international 
belligerency are unmistakably escalating the cost of doing 
business as usual for both countries. Their leaders must stop 
attacking their populations, undermining regional security, and 
threatening international security. Their actions run counter 
to the aspirations and hopes of their people and their 
neighbors.
    In my new role as Under Secretary for Political Affairs, I 
look forward to continuing to work closely and transparently 
with members of this committee and with the entire Congress. 
Thank you very much.
    Chairman Ros-Lehtinen. Thank you, Madam Ambassador.
    [The prepared statement of Ms. Sherman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Chairman Ros-Lehtinen. Mr. Secretary.

STATEMENT OF THE HONORABLE DAVID S. COHEN, UNDER SECRETARY FOR 
 TERRORISM AND FINANCIAL INTELLIGENCE, U.S. DEPARTMENT OF THE 
                            TREASURY

    Mr. Cohen. Thank you, Madam Chairman.
    Chairman Ros-Lehtinen and Ranking Member Berman and 
distinguished members of the committee, thank you for the 
opportunity to appear before you today to discuss the Treasury 
Department's efforts to implement and enforce sanctions on Iran 
and Syria.
    The focus of my testimony today will be the progress we are 
making in our financial strategy to increase pressure other 
than the Iranian and Syrian regimes. But, first, I, too, would 
like to say a few words about this week's revelation that we 
disrupted an Iran Quds Force plot to assassinate the Saudi 
Ambassador here in Washington.
    This is a dramatic reminder that the urgent and serious 
threat we face from Iran is not limited to Iran's nuclear 
ambitions. We have been working for several years to address 
the full spectrum of Iranian illicit conduct, including nuclear 
and missile proliferation, human rights abuses, misuse of the 
international financial system, and support for terrorist 
groups worldwide. This week is no different.
    On Tuesday, Treasury imposed financial sanctions against 
five individuals, including the commander of the Quds Force and 
three other senior Quds Force officers connected to the 
assassination plot. In taking this action, Treasury exposed the 
Iranian Government's involvement in the plot through the Quds 
Force, Iran's primary arm for exporting terror.
    And Wednesday we took another action targeting Quds Force 
involvement in terrorist activities, this time by imposing 
sanctions on Mahan Air, Iran's second-largest airline, which 
was secretly ferrying operatives, weapons, and funds on its 
flights for the Quds Force.
    Actions like these, along with a raft of additional 
sanctions we have imposed on Iran over the past several months 
and years, have put increasing financial pressure on Iran.
    CISADA has markedly amplified this pressure and deepened 
Iran's isolation. As we have explained to banks and governments 
in nearly 50 countries all around the world, CISADA offers a 
clear choice. A foreign bank can have access to the largest and 
most important financial sector in the world, the United 
States, or it can do business with sanctioned Iranian banks. 
But it cannot do both.
    For the overwhelming majority of foreign banks, the choice 
has been a simple one. Those with potentially sanctionable 
relationships quickly elected to stop that business. And where 
we learned of potentially sanctionable activity under CISADA, 
we have actively investigated.
    Our efforts are paying off. Iran is now facing 
unprecedented levels of financial and commercial isolation. The 
number and quality of foreign banks willing to transact with 
designated Iranian financial institutions has dropped 
precipitously over the last year. Iran's shrinking access to 
financial services and trade finance has made it extremely 
difficult for Iran to pay for imports and receive payment for 
exports. Iran's central bank has been unable to halt this 
steady erosion in the value of its currency, and Iran has been 
increasingly unable to attract foreign investment, especially 
in its oil fields, leading to a projected loss of $14 billion a 
year in oil revenues through 2016.
    Our efforts in Syria are also yielding results. Since the 
uprising in Syria began in March, President Obama has issued 
three new executive orders to establish sanction programs that 
have systematically escalated the financial pressure on the 
Assad regime. These U.S. sanctions, which targets human 
abusers, block the assets of the Government of Syria, impose an 
import ban on Syrian petroleum products, and prohibit new 
investment in Syria, are intended to pressure Assad to 
relinquish power.
    Our efforts have been echoed by our European partners, who 
have established an embargo on Syrian oil and imposed financial 
sanctions targeting officials responsible for Syrian 
repression.
    And echoing an action that we have taken, just this morning 
the EU announced sanctions on the Commercial Bank of Syria, by 
far the largest bank in Syria and its key remaining link to the 
international financial system.
    As a result of these sanctions, the Assad regime is 
struggling to find buyers for its oil, to access foreign 
currency, and to maintain economic stability.
    The IMF has revised its projections downward for the Syrian 
economy this year, from 3 percent growth to a 2 percent 
contraction, and predicts increasing pressure on Syria's 
foreign currency reserves and ability to finance imports.
    We are making progress in both Iran and Syria, but there is 
still much to be done to prevent both Iran and Syria from 
evading sanctions already in place and to take new steps to 
increase the pressure on these regimes.
    In the case of Iran, we continue to focus on the Central 
Bank of Iran, the CBI. Although U.S. financial institutions are 
already generally prohibited from doing business with any bank 
in Iran, including the CBI, further U.S. action against the 
CBI, if it attained multilateral support, could further isolate 
the CBI with a potentially powerful impact on Iran.
    I can assure the committee, as Secretary Geithner said in 
his letter to Congress of August 29th, all options to increase 
the financial pressure on Iran are on the table, including the 
possibility of imposing additional sanctions against the CBI.
    We will also continue to work with governments in Europe, 
the Gulf, and elsewhere to impose financial measures that will 
ratchet up the pressure on Assad to step down. If the Iranian 
and Syrian regimes continue to choose the path of defiance, we 
will continue to develop new and innovative ways to impose 
additional costs on them.
    I look forward to working with the Congress and this 
committee to advance our national security interests.
    [The prepared statement of Mr. Cohen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Chairman Ros-Lehtinen. I thank our witnesses for your 
statements.
    I will recognize myself for a question.
    Ambassador Sherman, when asked by the informant if the 
assassination of the Saudi Ambassador needed to go forward even 
if doing so could cause mass American casualties, the accused 
perpetrator responded, ``If hundreds go with them, expletive 
them.''
    Is engagement with the Iranian regime, bilaterally or 
through the P5+1, still a part of the administration's policy? 
And does the administration still adhere to this package of 
incentives for Iran based on that regime's suspension of 
uranium enrichment? And, if so, will the administration seek 
waivers on legislative restrictions that have been proposed and 
will be proposed in order for the U.S. to continue to 
participate in this incentive package? Is the U.S. position 
merely to ask Iran to suspend its nuclear enrichment program or 
to verifiably dismantle its nuclear program and stop other 
aggressive actions?
    And tied to this assassination plot--and I know we won't 
have time to answer them all--the administration sanctioned 
four individuals, one who has for years had American blood on 
his hands. This Quds Force officer reportedly planned the 
January, 2007, attack on U.S. soldiers stationed in Iraq. That 
attack left five U.S. soldiers dead and wounded three others. 
And this same Quds Force officer coordinated the murder-for-
hire plot recently in the U.S. that was just foiled this week. 
And this Karbala raid was daring. It was sophisticated. 
Iranian-trained terrorists posed as American soldiers.
    Two years later, however, the Obama administration approved 
the release of two brothers who were members of the Karbala hit 
team and leaders of one of the infamous Iranian-directed 
special groups; and the public rationale offered for their 
release was that it was part of an Iraqi reconciliation effort.
    So why did the administration not designate Shalai--the 
gentleman who is no gentleman--the one that was complicit in 
this murder-for-hire plot at that time, given that he was the 
key enabler of this deadly attack on Americans, and was not 
designating Shalai at that time part of the administration's 
engagement with the Iranian regime?
    Ms. Sherman. Thank you very much for your questions, Madam 
Chair.
    The administration is very clear. Our policy toward Iran is 
to get them to verifiably end their nuclear weapons program and 
their nuclear weapons ambition. There is no question about 
that, and we are quite unambiguous about that objective.
    There has been a two-pronged approach to that objective and 
they interact with each other. We want to create the maximum 
pressure on Iran. To do so, we not only need to impose, which 
we have, the strongest sanctions regime in three decades 
bilaterally against Iran, but we need to mobilize the 
international community. Because sanctions are most effective 
when they are severe, when they are enforced, and when they are 
taken forward by multiple countries.
    We are very powerful, and we are very strong, and we are 
very consequential to Iran, but when we have a United Nations 
Security Council resolution signed on to by the entire Security 
Council and they bilaterally move forward in enforcing those 
sanctions, we increase the severity and the impact of 
sanctions. It is always good for us to do it. It is even better 
when we have others do it with us.
    Chairman Ros-Lehtinen. And if I could interrupt, it is 
always good when we do it when we have all of these options on 
the table, but we don't do even our own.
    Ms. Sherman. We are absolutely committed to following 
through on the enforcement of all of our sanctions, and I will 
get to that in a moment.
    So we have one track which is sanctions and increasing the 
pressure on Iran and doing that in every single possible way 
that we can, and we are greatly appreciative of CISADA as an 
incredibly useful tool in doing that.
    The second prong is, rather than engagement, I would say 
seeing in fact whether there is an on ramp to having a 
discussion with Iran to actually end their nuclear weapons 
program.
    Chairman Ros-Lehtinen. So you believe--if I could 
interrupt, you believe that engagement with a country whose 
leaders have reportedly sanctioned this assassination plot, 
because money transfers would have been very difficult in a 
country like that were it not approved by higher-ups, that 
engagement with this country is possible?
    Ms. Sherman. So far, the answer has been no.
    Chairman Ros-Lehtinen. But you will continue?
    Ms. Sherman. Iran has not been serious. Iran has not been 
sincere. And, in fact, right after I was confirmed, I went up 
to the United Nations General Assembly, had a meeting with the 
P5+1, and I want to read to you and this was----
    Chairman Ros-Lehtinen. Thank you. And I am sorry. My time 
is up. But we will go to Mr. Berman's time.
    I apologize. I asked a lot of questions. But I just don't 
know what it would take for us to wise up and realize that they 
are not willing to negotiate, and they don't wish to negotiate.
    Ms. Sherman. May I add one sentence, Madam Chair?
    The one sentence I would add is, out of that P5+1 meeting, 
all of us agreed that there should be no conversation with Iran 
unless there is any seriousness and there is a way to verify 
that seriousness. So we agree with you.
    Chairman Ros-Lehtinen. We just had a conversation yesterday 
at the U.N.--anyway, thank you so much.
    Mr. Berman.
    Mr. Berman. I will ask my own question.
    Yesterday, we--and I have three questions, so I would 
appreciate short answers. I will try to make the question 
short.
    Yesterday, we passed a bill that would result in the United 
States cutting most of its contributions to the U.N. Since 
nothing works in the context of getting Iran to change its 
behavior unless--we have already sanctioned Iran for decades, 
totally, in terms of our embargo. Unless we get others, other 
companies and other governments to do it, how would the passage 
of that kind of law and a massive cut in our assessments affect 
your international strategy? And I ask you, Secretary Sherman.
    Ms. Sherman. Thank you, Congressman.
    As you know, we have articulated very strong opposition to 
this legislation and our deep concerns about the impact. As 
Secretary Clinton pointed out, restricting U.S. participation 
and withholding 50 percent of U.S.-assessed contributions 
absent a shift of voluntary funding would have severely 
undercut our ability to stop nuclear nonproliferation, combat 
terrorism, and fully implement the U.N. sanctions on Iran.
    As you know, it would mean that we would have to curtail 
our work with the Sanctions Committee, with the Panel of 
Experts, that the IAEA would be unfunded to an extent that they 
would not be able to carry out what we are all trying to 
achieve, that, in fact, all of the critical tools that we use 
to monitor, to verify, to in fact do exactly as the chairwoman 
suggested, make sure that Iran does not have a nuclear weapons 
program, would be severely hampered.
    Mr. Berman. Thank you.
    Under Secretary Cohen, the two of you--by the way, welcome. 
You have replaced Bill Burns and Stuart Levy, big shoes to 
fill, but you are the two that can do it. So glad to have you 
here.
    There is growing support I think for the notion of 
sanctioning the Central Bank of Iran. Nothing will have the 
impact on Iran's economy and Iran's revenue than those 
sanctions. Secretary Cohen, you testified that they are an 
option if there is multilateral support. Is the U.S. engaging 
in trying to develop the support for those kinds of sanctions 
as you did in the prelude to CISADA?
    Mr. Cohen. Thank you, Congressman, for the kind words, 
first of all.
    And in response to your question, yes, we are engaged in an 
effort to develop the multilateral support that would be I 
think critically important in having an action against the CBI 
really be effective. And I think the important point to 
recognize here is that, as you noted, we have comprehensive 
sanctions on Iran and have so for almost two decades and that 
includes the CBI. So there is no U.S. financial institution 
that has any dealings with the CBI, including the Federal 
Reserve. So the CBI is essentially completely cut off from the 
United States.
    So the real question is, can we, by taking another action 
against the CBI, by designating the CBI, as you suggested, 
either under our nonproliferation authority or under our 
counterterrorism authority, can we elicit multilateral respect 
for that action? And that work is under way.
    Mr. Berman. And that is where, by the way, if you dismiss 
the option of ever dealing with the Iranians should they decide 
to change their process, you weaken your ability to get the 
international support to impose the sanctions that could be 
effective. Since we have already imposed all the sanctions we 
can impose, we have to have other companies and countries 
changing their behavior.
    But I do have to say, unless we deal with the central bank, 
it seems to me we have a huge gap in our effectiveness of the 
financial sanctions.
    And finally in my last few seconds, is there an opportunity 
to get the Saudis and others to increase their oil production 
to help. In addition to the central bank, the other compelling 
thing would be if we could bring down the price of oil $10 or 
$20 a barrel. Increased production by the Saudis, who have much 
motivation to do so, would bring that about faster than 
anything. That would really put the pressure on Iran.
    Chairman Ros-Lehtinen. Thank you so much, And the 
gentleman's time has expired.
    Mr. Royce, the chairman on the Subcommittee on Terrorism, 
Nonproliferation, and Trade.
    Mr. Royce. Thank you, Madam Chair. I have a couple of 
questions.
    First, Secretary Sherman, let me ask you this question; and 
it has to do with whether or not people in Iran have access to 
Google Plus and Flash and other Web sites. Because we want to 
have brave activists have the ability to obtain information, to 
get ahold of the tools that they need. But are there 
impediments to them accessing these sites and are there any 
impediments on our end?
    Ms. Sherman. Thank you very much for that very important 
question.
    We do in fact have programs in place that do training and 
offer technologies that might help the people of Iran escape 
the repression and the lack of access to exactly the Internet 
and the programs that you suggest.
    I, unfortunately, need to say, Congressman, that I would be 
glad to discuss this further in another setting. Because, given 
the repressive nature of the Iranian regime, further discussion 
in this setting would put people at risk.
    Mr. Royce. I would be happy to do that.
    The other question I have has to do with Iran's central 
bank, which is an arm of the regime. Reportedly, it has 
assisted the regime in sidestepping U.S. financial pressure. 
Reportedly, it has also assisted in the nuclear weapons program 
in terms of financing. And, in addition, there are reports that 
it has helped fund Hezbollah. Secretary Geithner has said all 
options are on the table when it comes to sanctioning the 
Central Bank of Iran, and I was going to ask you about that. 
Are you currently looking at that?
    Ms. Sherman. As Secretary Cohen articulated, we are indeed 
looking at that. And, as he pointed out, we already have cut 
off all U.S. connections and relationships with the central 
bank; and the question is whether we can do so in a way 
internationally that we can sustain.
    Mr. Royce. But we know we have a way. Because when we wrote 
section 104 or 104(e) of the law, it gave the Treasury 
Department the responsibility to pursue relentlessly, as we 
said, foreign banks engaged in business with blacklisted 
Iranian entities. So I suspect at this point in time we must 
have a laundry list that we have put together of foreign banks 
that have done that, and I wanted to talk to you a little bit 
about that enforcement action. Because I have a concern about 
how long we drew out the process on the rule itself. It looked 
as though we were trying to avoid moving forward on this front. 
And, as you can tell, there is a consensus, at least in this 
institution, of opinion that this should have already been 
done.
    Mr. Cohen. Congressman, let me first address the issue of 
the 104(e) rule, and then I will return to the central bank 
question.
    We issued that rule earlier this week. It has gone into 
effect, and we have already sent out to U.S. financial 
institutions a request for information with respect to a number 
of foreign banks where we have reason to believe that they may 
be involved in potentially sanctionable activity under CISADA.
    That being said, we have, as I noted in my testimony, been 
very aggressively implementing CISADA really since the day it 
was enacted; and what we have done, frankly, using other 
sources of information is understood where there may be banks 
that are continuing to do business with designated Iranian 
banks, and we have gone out as part of our, you know, worldwide 
effort--we have gone out specifically to those jurisdictions 
and those institutions where we thought there might be 
sanctionable activity. And, as I noted, we have had an 
extraordinarily positive response. And the result of this--and 
I think this also may be something that would be better 
discussed in a different setting--but the result has been a 
tremendous reduction in the number of banks doing business with 
designated----
    Mr. Royce. Now would be the time to lean in. We have 
already got North Korea using a Jordanian-based bank as a 
conduit to receive funds from Syria and Iran. And, of course, 
North Korea was the entity providing Syria with a nuclear 
reactor right in the middle of the Six-Party Talks, by the way, 
and has provided Iran with missile technology. And Kim Jong Il 
doesn't do that for free.
    So, clearly, these financial institutions that serve as 
conduits in this capacity making an example of those 
institutions and leaning in to do that sends a message to the 
next institution that might be engaged with the other rogue 
regimes, and that is why we----
    Chairman Ros-Lehtinen. Thank you, Mr. Royce.
    And the committee will recess. We have two quick votes. And 
when we come back, we will turn to Mr. Ackerman for his 
questions.
    The committee stands in recess. Thank you.
    [Recess.]
    Chairman Ros-Lehtinen. The committee is once again in 
order, and Mr. Ackerman is recognized for 5 minutes of 
questions.
    Mr. Ackerman. I thank the chairman. Thank you especially 
for this second of a series of two very important hearings.
    I want to thank both of our expert witnesses for their very 
important testimony and thank them and the administration for 
the great work you have continued to do on pressing this. But 
my question really remains: What is left to do? If we had our 
wish list of all of the sanctions and actions that we could do, 
short of the ones that we don't want to necessarily contemplate 
or do, what would that list be?
    Mr. Cohen. Thank you, Congressman.
    There are things that we are working on in addition to the 
CBI which we talked about. One area where we have been very 
active and I think where we will continue to focus is on the 
IRGC, which Iran has used increasingly to take over parts of 
the economy to the detriment of----
    Mr. Ackerman. They are already on the list.
    Mr. Cohen. They are, but there are--but what we can do and 
what we have done in the last several months is to add IRGC-
affiliated entities for sanctions. So the sanction that we 
imposed on Tidewater, which Ranking Member Berman mentioned, 
was done because the IRGC in the last 2 years or so took over 
Tidewater from a private owner.
    Mr. Ackerman. So you are saying we should list all of the 
affiliates, agencies, subsidiaries of the IRGC?
    Mr. Cohen. And we are working to do that. And----
    Mr. Ackerman. Can we expect to see that soon?
    Mr. Cohen. Well, we have done the ones that we are aware 
of. The Iranians continue to offer up to us new targets as they 
turn over more and more of their economy to the IRGC. As they 
do that, that provides targets for us to go after.
    Mr. Ackerman. And assuming we had the entire list and we 
did the entire list, what then? You know, we have kind of had 
sanctions on Cuba for 40-some odd years. Are we prepared to 
wait 40-some odd years? Cuba doesn't seem to be presently 
developing a nuclear weapons program.
    Mr. Cohen. I think the IRGC----
    Mr. Ackerman. The point being we don't have 40 years in 
Iran. And the longer we wait, the time benefit is exclusively 
theirs, not anybody else's.
    Mr. Cohen. I think we all share the sense of urgency.
    Mr. Ackerman. And the underlying point is, if we pounced on 
every sanction on every organization and every individual--and 
I have given you a list of some additional targets--what then? 
I mean, with the events that occurred over the last several 
days, this egregious act to commit an immense crime, an 
international crime, in addition to being a crime to our 
country, to blow up a large number of people, including an 
ambassador that we are duty bound to protect, what is left to 
do? And, also, if they were--heaven forbid--would have been 
successful in that attack, what would have been our response?
    Mr. Cohen. Well, I can't speculate on what our response 
would have been had this plot not been disrupted. And I am 
thankful that it was, as Under Secretary Sherman----
    Mr. Ackerman. But our response to the potential of the plot 
being effective is more of the same?
    Mr. Cohen. I don't know that it is more of the same.
    Mr. Ackerman. Well, it is additional sanctions. Are we 
considering something other than additional sanctions?
    Mr. Cohen. From the Treasury Department's perspective, that 
is what we have in our quiver.
    Mr. Ackerman. Yes, that is your quiver. Let's say you blew 
the whole load. All sanctions. Everything we know of and 
conceivably could know of.
    Ms. Sherman. If I may, Congressman, I think a couple of 
points. One, as the Under Secretary said, we absolutely share 
your sense of urgency and that time is not on our side. We get 
that.
    Mr. Ackerman. Not on my side, because I am not going to get 
an answer because we don't have one. Are we doing anything to 
dissuade the Saudis from responding?
    Ms. Sherman. We have talked with the Saudis. They have put 
out a rather robust statement of holding the Iranian Government 
accountable for these actions. We have from the President, the 
Secretary----
    Mr. Ackerman. I don't know what any of this means. It is 
like in the previous administration and the administration 
before that, the only thing that we would do when bad things 
happen is say this is not acceptable.
    Ms. Sherman. Well, no, because what we are trying to do 
is--as you said, we have undertaken a number of sanctions. And 
I looked briefly at your suggestions, which I think are 
excellent and also gives us a whole sector to pay attention to, 
which I think we probably need to pay more attention to than we 
have, so we thank you very much for that suggestion.
    But I think what we need to do is to get every single 
country we can to imagine exactly what you said, Congressman, 
what would have happened if this had been successful? And once 
you think about that, you, Country X, ought to enforce all of 
the sanctions that we have put on the table. You ought to make 
sure the Qods force cannot operate in your country. You ought 
to make sure that high-level visits don't occur. There has to 
be international pressure.
    Chairman Ros-Lehtinen. I am sorry----
    Mr. Ackerman. I thank the chair. I yield back my time.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Ackerman; and 
Mr. Chabot is recognized for 5 minutes.
    Mr. Chabot. Thank you very much, Madam Chair.
    As I noted in my opening statement, I am deeply concerned 
that we are pursuing essentially the same Iran policy as we had 
on January 20th back in 2009, namely engagement and pressure. 
And that, after 3 years, it is safe to say that this policy has 
failed, as far as I am concerned, to cause Iran to 
fundamentally alter its commitment to achieving a nuclear 
weapons capability.
    I would like to take this opportunity to read a few quotes 
from the administration that I believe illustrate this concern.
    On May 18th, 2009, at a press conference with Israeli Prime 
Minister Netanyahu, President Obama outlined the contours of 
the administration's policy when he said, and I quote:

        ``We are engaged in a process to reach out to Iran and 
        persuade them that it is not in their interest to 
        pursue a nuclear weapon and that they should change 
        course. But I assured the Prime Minister that we are 
        not foreclosing a range of steps, including much 
        stronger international sanctions and ensuring that Iran 
        understands that we are serious.''

    I will read another quote. On July 12th, 2009, just over 1 
month after the regime in Tehran perpetrated one of the most 
flagrant instances in election fraud history, Secretary of 
State Hillary Clinton stated,

        ``Neither the President nor I have any illusions that 
        dialogue with this Islamic republic will guarantee 
        success of any kind, and the prospects have certainly 
        shifted in the weeks following the election. But we 
        also understand the importance of offering to engage 
        Iran and giving its leaders a clear choice whether to 
        join the international community as a responsible 
        member or rather to continue down a path to further 
        isolation. We remain ready to engage with Iran, but the 
        time for action is now. The opportunity will not remain 
        open indefinitely.''

    And then nearly 2 years later, on July 3rd of this year, 
National Security Advisor Tom Donilon outlined the exact same 
policy, and I quote again:

        ``We offered the Iranian Government quite directly a 
        bona fide offer of engagement. The Iranian Government, 
        the leaders of Iran, have chosen not to take that up. 
        So the pressure tack, unfortunately, I think is where 
        we are today, again, with the opportunity for the 
        Iranians, if they are willing to take it, to have a 
        conversation with us and the world community about 
        their nuclear program.''

    And yet again this morning, Madam Secretary, in your 
written statement just a little while ago, in the statement you 
have, and I quote: ``We will continue to increase the pressure 
until the Iranian regime engages the international community 
with seriousness and sincerity.'' And then it goes on: ``We 
have offered to meet with Iran and have proposed confidence-
building and transparency arrangements that offered practical 
incentives.''
    You know, it sounds like more and more carrots to Iran to 
me. As we approach year three of this policy, it seems to be 
painfully obvious that our policy not only remains unchanged 
but that it has failed to achieve our core objective, and that 
is persuading the regime in Tehran to abandon its pursuit of 
nuclear weapons capability.
    I am sure that our witnesses can outline numerous measures 
that the administration has taken in support of these policies, 
but these measures are merely means of trying to coax or 
pressure the regime to change its calculus, not policies in and 
of themselves.
    So my question is, first, how has the administration's 
overall policy actually altered--not just what we have done but 
how have we actually altered Iranian actions or its strategic 
calculation regarding its nuclear program? And, conversely, why 
has 3 years of Iranian rejection and escalation not altered our 
policy?
    And I will yield.
    Ms. Sherman. If I may, let me speak very briefly and turn 
it to Under Secretary Cohen.
    I understand and we share your frustration that more 
progress has not been achieved. But, in fact, the incredibly 
robust sanctions have only been in place for a very short 
period of time in the history of sanctions imposition. And 
indeed it was not until this administration that we had the 
most extensive, deepest, most multilateral sanctions ever 
imposed on Iran ever; and indeed it has begun to have some 
bite. It has hurt their economy. Stopping transshipment has 
meant they cannot procure some of the elements they need for 
their nuclear weapons program----
    Mr. Chabot. And I am almost out of time. I don't want to 
interrupt you, but I will, just to say this. And, again, my 
question, how has it altered their policy? You are saying we 
have done different things.
    Ms. Sherman. It has--a number of things we have done have 
slowed--although they have moved forward, they have not moved 
forward at the pace at which they had hoped to.
    I don't disagree with you, Congressman, that we would like 
to have made more progress. We don't disagree with you that 
time is not on our side. As the President said yesterday, we 
are looking to increase even further the efforts that we are 
taking for Iran to be held accountable for what it has done 
here, particularly in the wake of this conspiracy to 
assassinate the Saudi Ambassador. But this is a very difficult 
problem; and the options on the table, all of which are on the 
table, are difficult.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Mack is recognized.
    Mr. Mack. Thank you, Madam Chair.
    I want to kind of follow up on this. So I hear that you are 
frustrated, and you can imagine that we are frustrated. And the 
American people are frustrated, and the world I think community 
is frustrated.
    So let me ask you this. Because a lot of times what happens 
is we are told that we are using the best of the ability under 
law to do what we can do and we are kind of hamstrung and those 
types of things. But when people like me ask--and I am going to 
ask you again--what do you need from the Congress to be 
successful so you are not frustrated with yourself and 
everything else that is happening in the State Department, then 
we hear that, well, we don't hear any concrete steps that you 
are asking the Congress to do.
    So, you know, what tools do you need to really have an 
impact with Iran?
    Ms. Sherman. Thank you, Congressman. Again, I will turn to 
Secretary Cohen in a moment.
    One thing I would say, besides some of the legislation that 
you have put on the table like CISADA, which was incredibly 
useful, and I think Congressman Ackerman may have come up with 
a sector we should take a look at in a way, quite frankly, we 
should not unfund the U.N., because we need the oversight 
bodies to be able to know where facilities are, to monitor what 
is going on, to be able to act when we need to act.
    Secondly, I would say----
    Mr. Mack. So you would rather us be part of an organization 
that works against our own interests at times?
    Ms. Sherman. I understand that it doesn't do everything we 
want them to do, but the IAEA has been a valuable tool in our 
ability to stop nuclear proliferation.
    Similarly, I would say we need a budget that allows us to 
do the kind of programming that Congressman Royce raised around 
how we, in fact, help get Internet tools to people in 
repressive societies.
    Mr. Mack. So that is our answer? More Internet tools?
    Ms. Sherman. No, I am saying that----
    Mr. Mack. With all due respect, with all due respect--
excuse me, please. With all due respect, I am not sure with 
those comments that I have got a lot of confidence that the 
threat is being taken seriously enough.
    You know, we now have recently seen Iran coming through 
Mexico and a plot here in the United States. And when I start 
talking about whether or not the cartels in Mexico are an 
insurgency, using terrorist activities, typically from 
government witnesses we hear, oh, I wouldn't really say that, 
or--although to Brownfield's credit, he would agree, and he has 
agreed. But most just kind of, oh, I wouldn't go that far.
    So it almost appears that we are afraid to really go after 
in what is in our interest. So turning everything over to the 
U.N. and then sitting here and saying we need more social 
networking as the answer leads me to believe that--I don't 
know--either you don't understand the seriousness of what is 
happening or you are so--you are unable to articulate to this 
committee what it is that you really need because it may not 
fit in what the administration has decided it wants to do. That 
is the frustration.
    Ms. Sherman. I understand that frustration, Congressman. I 
was suggesting--we did that yesterday--I was suggesting some 
tools that would be useful to us.
    I quite agree with you that what the fundamental policy 
must be is to increase the pressure on Iran and to get them to 
eliminate their nuclear weapons program. And, as I said earlier 
and Secretary Cohen has said, we have the most extensive, the 
most robust set of sanctions, and we welcome the ongoing 
discussion with Congress around CBI and about other sectors 
that we can attack to solve this problem.
    Mr. Mack. Again, with all due respect, this is double-talk. 
You have done great. We have eaten up 5 minutes. But I have 
heard nothing about what it is that you are suggesting that we 
need other than more social networking. And that is 
frightening. It is frightening to think that your position is--
and the position of our Government is--it appears so inadequate 
and not really understanding what the threat is.
    Anyway, my time has expired. And, Madam Chair, I appreciate 
the time. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Mack.
    Mr. Deutch, my other Florida colleague, is recognized.
    Mr. Deutch. Thank you, Madam Chair.
    Secretary Sherman, let me just start with a local issue for 
me, which is also part of the subject of this hearing.
    Robert Levinson is a constituent of mine missing since 
2007. His wife lives in Coral Springs, Florida. In 
conversations that I had with Assistant Secretary Feltman 
during the summer, there was some belief that suggested that he 
was being held in Asia, that the Iranians may be involved, may 
know. In light of the recent release of the hikers, we have to 
continue to press the Iranians on this issue. Is there 
anything, any additional information you can provide for me or 
for Mr. Levinson's family?
    Ms. Sherman. Congressman Deutch, as you know, this 
administration shares your deep concern, and we will leave no 
stone unturned. Shortly after I became Under Secretary, I 
called Mrs. Levinson to talk to her personally to let her know 
that I would persevere as much as my predecessor did.
    And I know this morning there is an AP report about a 
recent meeting between U.S. officials and the Cubans. And we 
have always said we would use all diplomatic channels to try to 
get Alan Gross home. We continue to call on the Cuban 
Government to release Mr. Gross on humanitarian grounds and to 
allow him to return to his family and bring to an end the long 
ordeal that began well over 1\1/2\ years ago. And I can confirm 
that such a meeting took place.
    Mr. Deutch. The Department is working hard to locate and 
bring Mr. Levinson home and Mr. Gross as well.
    Ms. Sherman. Absolutely. I am sorry. I was talking about 
Mr. Gross and conflated the two. My apologies. Let me be clear. 
On both cases, Mr. Gross in Cuba, Mr. Levinson in Iran, we are 
doing everything we can with every channel we have.
    Mr. Deutch. I appreciate your answering my second question. 
Thank you.
    I also wanted to talk about these reports about China 
scaling back their activities. There was a recent story, a 
Reuters report, where Foreign Minister Salahi said that the 
Chinese are very active in Iran. There may be one or two 
projects that may have been reported in the media. One or two 
projects may be slow, but that is no problem.
    I guess the question I have, under the existing sanctions 
law--and this gets to the broader question of are we doing 
everything we can right now--under the existing sanctions law, 
there are, if I understand the law correctly, three options.
    We can--if we know that company is violating the law, we 
can impose sanctions, we can with waive sanctions for national 
security purposes, or we can designate that that company is 
subject to the special rule.
    The news that some Chinese companies may have scaled back 
tells us that those Chinese companies are operating there. And, 
if that is the case, then those companies have to be treated in 
one of those three ways if these sanctions are going to have 
any import at all. So are we--is that where we are going, and 
why haven't we done that yet?
    Ms. Sherman. We share the concern, particularly about what 
China is doing in the energy sector. The President, the Vice 
President, and the Secretary have all raised this directly with 
the Chinese. We have, in fact, designated one Chinese company 
under INKSNA for its activities regarding foreign persons that 
are helping on WMD.
    But, as you said, it appears that the interventions at the 
highest levels to get them to slow down existing activities, 
not conclude new deals and not to backfill is producing some 
progress. The Secretary is continuing to look at this.
    Mr. Deutch. I am sorry. We all have limited time.
    But the question is not just about whether these companies 
have slowed down and whether that is having an effect. The 
question is, is the sanction law doing what it should? And for 
it to be effective not just with respect to those Chinese 
companies but with respect to companies all around the world 
they have to know that we enforce the sanctions or we will at 
least identify the companies and then waive the sanctions.
    Ms. Sherman. Absolutely.
    Mr. Deutch. I would suggest that those companies that we 
are gratified are slowing down should be identified; and if 
they are slowing down and have committed to leave, they should 
be subject to the special rule. If we are gratified they are 
slowing down and for national security purposes that is 
sufficient, then let's say that. But let's identify those 
companies so that every other company around the world who does 
business in violation of our sanctions law understands what the 
ramifications would be.
    And, unfortunately, my time is up. Madam Chair, I yield 
back.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Deutch, another Florida colleague, will be recognized 
later, and we also have Mr. Rohrabacher, but now we go to Mr. 
Turner of New York.
    Mr. Turner. Thank you, Madam Chair.
    I have no doubt about the efficacy of the sanctions in 
slowing this matter down, but how much weight is given to the 
world view, the mind-set of the Iranian regime? We listen to 
the rhetoric coming out of there from both a theological, their 
eschatology, it is far more frightening. How is this weighed 
in? Is it given a weight? A consideration? Are they believed?
    Ms. Sherman. Well, Congressman, I think that everything 
that Iran has said to date has not been particularly useful, to 
say the least.
    Mr. Turner. Indeed.
    Ms. Sherman. Indeed, Iran's response to this plot that we 
recently uncovered and disrupted was to basically call it a 
fantasy. If wanting to bomb the Saudi Ambassador on U.S. soil 
and also kill a group of innocent bystanders is fantasy, then 
obviously Iran in a different world. And I think that everyone 
on this committee would agree that they do, and it is why the 
chair and the ranking called this hearing today. Because, 
indeed, I would quite agree with you. What they say has no 
weight to it so far as we proceed forward.
    Mr. Turner. If you believe what their speeches are, you 
would think the sanctions--we are throwing spitballs at a tank.
    Ms. Sherman. We know, Congressman, through a variety of 
means that in fact what we are doing has had an impact, that, 
in fact, it has created problems in their economy. It has 
created some dissension within their government. It has put the 
screws to what they are trying to do. But there is no doubt 
there is a considerable path to go yet to get them to eliminate 
their nuclear weapons ambitions.
    Mr. Cohen. If I could--I completely agree with everything 
that Secretary Sherman said, but if I could just add a couple 
of points on that.
    I think it is important to separate Iranian rhetoric from 
the reality, and we are able to measure reality in two 
important respects. One is--and I detailed this somewhat in my 
testimony--we can see the economic impact of the sanctions that 
we have been applying. We can see it in their oil field 
developments. We can see it in their much, much more 
constricted and isolated financial networks that have made it 
increasingly difficult for Iran to engage with the outside 
world.
    Mr. Turner. If I may, the sanctions are designed to change 
their behavior. I think we are dealing with North Korea. They 
are materialistic, they understand what they want, and it has 
some effect. We are dealing with a different animal here, are 
we not?
    Mr. Cohen. This is a country I think actually, unlike North 
Korea, that cares very much about its ability to integrate into 
the broader world. Iranians I think feel even more intensely 
the isolation that the sanctions have brought to bear than the 
North Koreans. So I do think that the sanctions in fact are 
having an effect, notwithstanding the rhetoric.
    The other point that I would make is we hear often from the 
Iranians about projects or new banks that they have established 
and new relationships that they have concluded; and, quite 
frequently, it is just bluster. There is no reality to it. 
Which is not to say that we should ignore the egregious and 
vile rhetoric that often comes from the Iranian leadership. But 
I do think it is important to separate it out from----
    Mr. Turner. Is it then your opinion that that is not to be 
believed?
    Mr. Cohen. I am sorry?
    Mr. Turner. Their rhetoric. At its core is nothing more 
than----
    Mr. Cohen. No--well, I want to be very clear. I think the 
basic direction of the Iranian regime is something that we have 
to take at face value and take very seriously. I am talking 
about more specific claims and assertions of sanctions not 
having an effect and that sort of thing.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Turner.
    Mr. Engel is recognized.
    Mr. Engel. Thank you, Madam Chair, and welcome to both of 
you. You both do great work.
    As you know, with the good help of our chair, I was the 
author of--sponsor of the Syrian Accountability Act. Chairman 
Ros-Lehtinen and I went around for a number of years trying to 
get support in Congress. We did. The President signed it. And 
now, from what I understand, the President is placing a robust 
series of sanctions and penalties on the Syrian regime as a 
direct result of our Syria Accountability Act.
    Does the administration require any additional tools from 
Congress to place additional sanctions on Syria's assets? And 
if so, what? And what can we do? What are the regime's 
remaining pressure points?
    Ms. Sherman. Congressman, thank you very much, and thank 
you for your leadership along with the chair and the other 
members of this committee on bringing forth the Syria 
Accountability Act.
    The administration has implemented almost all of the 
sanctions listed in that Act. I can walk through all of the 
things that have occurred.
    Most recently, as you know, on August 18th, the President 
signed an executive order, 13582, blocking the property of the 
Syrian Government, banning U.S. persons from new investments in 
or exporting services to Syria, banning U.S. imports of and 
other transactions or dealings in Syrian-origin petroleum and 
petroleum products, therefore fulfilling all of the rest of the 
sanctions.
    We have also imposed travel restrictions on the Syrian 
Embassy and followed through on the other elements of the 
Syrian Accountability Act. So we think you have given us a tool 
that is allowing us to impose really extraordinary sanctions on 
Syria, and we are grateful.
    At the moment, we are busy, since this is a relatively new 
instrument, fulfilling all of these, executing on all the 
sanctions that are possible under it. So, right now, I think we 
have the tools that we need. I would let David add anything he 
would like to add.
    Mr. Cohen. I quite agree. With the executive order that was 
issued in the middle of the August we now have comprehensive 
sanctions on Syria. It is entirely cut off from the United 
States.
    The difficulty, as I am sure you know, Congressman, is that 
there was not much interaction between the United States and 
Syria to begin with, and so the effect of the sanctions that we 
apply, you know, there is a limit to that. But what we have 
been doing, working with our colleagues at State in particular, 
is working with the EU to ensure that the EU applies very 
powerful sanctions that complement what we have done. And we 
have had very good success on that.
    Mr. Engel. Well, thank you.
    Let me ask you this. Initially, it seemed like we and the 
rest of the world were reluctant to do anything to undermine 
the Assad regime, which I thought was a mistake. But even the 
Israelis were reluctant because it was sort of like better the 
devil you know than the devil you do not know. I think that 
reluctance is gone because I think we see Assad murdering his 
own people.
    So I just want to ask you about the newly formed national 
council, the Syrian opposition governing body. Are they the 
legitimate representatives of the entire opposition and what do 
we know about them?
    Let me ask you this. If the Syrian regime, the Assad regime 
is toppled--I realize it is a bit of a crapshoot, because we 
really don't know what is going to come, but does it not 
potentially have positive ramifications for the area? In other 
words, Syria right now is right back in the middle of Lebanon. 
We thought we had them out. They are right back in the middle 
of it. Would it not be a blow to Hezbollah and to the Iran 
regime if Syria were to go? Wouldn't it show the Iranians who 
are oppressed, the average person, that there is some hope and 
maybe cause an undermining of the Iran regime?
    Ms. Sherman. Congressman, I think, going to the end of your 
comment, we would agree. In fact, one of the premises of this 
hearing is the tremendous interaction between what is happening 
in Iran and what is happening in Syria, and that Syria has 
really turned to Iran more and more as the only support it has 
as it has gotten further isolated from the international 
community, just as you have described.
    And so, a change in leadership and an opening to all of the 
people of Syria who want change would in fact have an impact on 
Iran to further isolate it as standing by itself and no longer 
having it as easily to, as you say, interject itself not only 
into Lebanon but to be a destabilizing factor throughout the 
region. So we quite agree with you.
    As for the opposition, we are and I think Ambassador Ford 
has done a superb job trying to meet with everyone and to 
understand who all the characters are. And I don't think we 
know yet how all of this will form.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Poe is recognized.
    Mr. Poe. Thank you, Madam Chair.
    In 1979, 444 Americans were held hostage--rather, 52 
Americans were held hostage for 444 days by the Iranian 
tyrants. The United States, in my opinion, has held the MEK 
political hostage for 450 days for its failure to abide by a 
court order and the court saying 15 months ago that the MEK was 
denied due process by our State Department, and our State 
Department has failed to make up its mind one way or other 
whether the MEK should be delisted or stay on the list. I think 
that is not a good situation for the United States State 
Department to be in, that it should make a decision.
    And sanctions historically have never worked. It just 
prolongs the inevitable, whatever that may be.
    My question, Secretary Sherman, is does the United States 
have a policy that supports a regime change in Iran through the 
people of Iran?
    Ms. Sherman. The administration has a policy to eliminate 
Iran's nuclear weapons program and ambitions, to stop its 
international terrorism, to stop its destabilization----
    Mr. Poe. Excuse me, Secretary Sherman. I only have 5 
minutes, and I don't want you to talk so much that I don't get 
an answer. Does the United States Government have a policy that 
we support the regime change by the people of Iran in their 
country?
    Ms. Sherman. I think what we have seen throughout the Arab 
spring is that, and in the situation in Syria, is when people 
themselves make choices about what they want for their future 
the international community should support people in that 
effort. But it is up to the people of Iran.
    Mr. Poe. But do we support the regime change? If the people 
of Iran want a regime change, do we support it? Would we 
support it?
    Ms. Sherman. I think we would support the people of Iran 
having the same freedoms all the rest of us have.
    Mr. Poe. I am sorry. Is that a yes or a no or you don't 
know?
    Ms. Sherman. It is exactly what I said, Congressman, which 
is we support the aspirations of the Iranian people.
    Mr. Poe. I think one way that we could help a regime 
change--and I do believe that is the greatest hope for peace, 
is that there is a regime change and that the little fellow 
from the desert, Ahmadinejad, be replaced by his own people. 
That is the most secure and best way for world peace, is to 
replace him through the people.
    But one way we can do that is show support by making up our 
mind on whether the MEK should stay on the foreign terrorist 
organization list or not. We just need to fish or cut bait on 
that issue. And I think that, of course, that we should make 
the decision that they should be delisted and let the people of 
Iran in their own way change the regime, as has occurred in the 
Arab spring in some other countries.
    When is Iran going to have nuclear weapons, Secretary 
Sherman? When do you believe they will have them?
    Ms. Sherman. There is a lot of discussion about what that 
timing might be, and it is certainly not a good sign that they 
have declared that they have moved to 20 percent enrichment, 
and they have moved some of their centrifuge capabilities to 
what was a previously covert center at Qom. But I couldn't give 
you today in this setting an assessment but would be glad to 
have a separate briefing to get the Intelligence Community's 
best estimate of that.
    Mr. Poe. It appears to me that, no matter what we done and 
what the international community has done, Iran is still 
determined to have nuclear weapons, another example that 
sanctions have not been successful.
    The latest situation with the Iran Government in my opinion 
working with who they thought were al-Qaeda--excuse me, Zeta 
operatives in Mexico to commit crimes in the United States, is 
there any further policy of the United States other than to 
isolate Iran, whatever that means? Are there further plans with 
the United States as far as the policy goes?
    Ms. Sherman. The President said yesterday, Congressman, 
that he wants to ensure that we have the strongest response 
toward this latest horrific act by Iran. We are working 
assiduously to make real that commitment that he stated 
yesterday. And we will be doing everything we can, and have 
been from the President on down, to try to move in that 
direction some of those things have been discussed here today, 
but there are others in consideration. And, as the President 
has also said, every option in circumstances like this always 
remain under consideration.
    Chairman Ros-Lehtinen. Thank you so much, Judge Poe.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, Madam Chair.
    Welcome to you both. Thank you for being here today. And 
congratulations, Under Secretary Sherman, for your new role. We 
look forward to working with you.
    I wanted to start really talking about Iran. We hear 
reports about increasing divisions. We see in the region the 
movements of the Arab spring in different stages in different 
countries. The regime has certainly repressed talk of any 
reforms there very well in recent years. But what do you think 
is the viability for renewed democracy movements in Iran, given 
movements elsewhere in the region? And I want to start with 
Under Secretary Sherman.
    Ms. Sherman. Thank you, Congressman, and thank you for your 
good wishes. I appreciate it.
    I think we were all heartened when we saw the Green 
movement emerge in Iran some time ago and deeply saddened when 
we have seen the tremendous repression to try to squash any 
ability of an opposition to form. At the same time, I think we 
all believe that the aspirations of the Iranian people are to 
have the same freedoms that the rest of us do.
    And in response to Congressman Royce's question earlier 
today, the government--we have quite an extensive program to 
try to ensure that information can reach the Iranian people, 
that they have the technology to have access to that 
information. There are other things that we can do to be 
helpful in supporting the aspirations of the Iranian people, 
and we would be glad to give you a more detailed understanding 
of that in a different setting. Given the repressive nature of 
the government, we are limited in what we can say here.
    Mr. Carnahan. Thank you.
    And Under Secretary Cohen?
    Mr. Cohen. I think I have nothing to add to Secretary 
Sherman's I think very apt comments.
    Mr. Carnahan. Then I will move on. Thank you.
    Next, I want to turn to Syria, the U.S.-backed resolution 
calling for an end to ongoing violence vetoed by China and 
Russia. Secretary Rice, you know, led that effort vigorously. 
But I guess my question is, what is our strategy moving 
forward? There has certainly been progress made in building 
international consensus. And I guess the question is, what are 
our next steps and what specifically do we need to do to work 
with China and Russia to address their concerns?
    Ms. Sherman. We have not stopped that effort, as you 
indicate, Congressman. And indeed, as Secretary Cohen said 
earlier today, today the European Union--and I had misspoke, I 
said the Commercial Bank of Iran, and I meant to say the 
Commercial Bank of Syria--they designated the Commercial Bank. 
And, obviously, the EU's earlier sanction of stopping 
petroleum--oil and gas between Europe and Syria was quite 
crucial because it is an important market.
    So the European Union, which has much greater ties to Syria 
than the United States has had for some time, probably can be 
more effective on the sanctions front than even we can be, 
though we continue to use the Syria Accountability Act to 
fulfill all of the tools that you all have provided to us.
    I think today also the head of the Human Rights Commission 
has indicated that there really is a tremendous effort under 
way by the Syrian Government to repress and kill and persecute 
all of its citizens and really calls on the international 
community to take urgent action to stop such things. So we will 
see what the response is to that as well.
    Mr. Carnahan. And specifically I wanted to ask about our 
strategy dealing with Russia and China, addressing their 
concerns.
    Ms. Sherman. We have continued conversations with them to 
try to address their concerns. But my sense, Congressman, is we 
need to proceed to mobilize those who are ready to act while we 
try to bring Russia and China around.
    Mr. Carnahan. And Under Secretary Cohen?
    Mr. Cohen. I would add only this. That as we continue to 
work with Russia and China I think we also need to work with 
other countries that may look at this as an opportunity to get 
into the Syrian market. I think India, for instance, is another 
country we need to pay attention to.
    For our part, although we have comprehensive sanctions on 
the Government of Syria now, we still also have the opportunity 
through the pre-existing executive orders, the one in 
particular that addresses human rights violations, to identify 
individuals and entities in Syria or outside of Syria, 
including in Iran, that are involved in these human rights 
abuses.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    First of all, for the record, I am appalled that it takes 
the attempted murder of a Saudi Ambassador for the U.S. to do 
something serious--serious soul searching what further actions 
we can take to try to rein in the Mullah regime's dictatorship 
and repression and threat to other people and other regimes and 
other governments in that region.
    Iran has murdered hundreds of our own military personnel by 
providing Shiite militias in Iraq with high-powered IEDs over 
the years. This has been going on for years. And I don't mean 
to downplay this assassination attempt and how important it is, 
but we should have responded with a very tough reaction the 
minute we found out that Iran was providing these weapons to 
people who were killing American soldiers. But we just sort of 
let it off, shrugged it off. We have a certain level of 
sanctions that obviously they can live with, because they have 
been living with it.
    Then we have, you know, like these folks here with the MEK. 
I mean, clearly, the MEK has been labeled a terrorist 
organization because they opposed the Mullah regime. And we are 
doing that and trying to curry favor with the Mullah regime. 
And how much does it take before we quit trying to curry favor 
with them by treating people who oppose them as if they are 
criminals? It is the Mullah regime who are terrorists, not the 
MEK. The MEK wants to establish a democracy there.
    I am not saying I agree with everything they stand for. But 
by designating them terrorists we are giving the Mullahs the 
idea that we are weak. How do we expect to get anywhere in this 
world when we treat our friends who believe in democracy as if 
they are enemies and our enemies if they are our friends? Seems 
to me that is what is going on here.
    And I agree with Mr. Mack's frustration. Look, we are at a 
point where we have a representative of our Government who 
can't even say we believe in regime change with a Mullah 
dictatorship that is building nuclear weapons and undermining 
governments throughout that region and now is engaged in hiring 
an assassin to commit an act of assassination and a bomb 
explosion here in our Nation's capital. And we don't even have 
a government--our Government suggesting that we--that 
government--there should be a new regime there.
    Of course, that is seen as weakness. We are seen as 
weaklings. Not as--so what if we side emotionally with the 
people of Syria? We couldn't even--we had a tepid--this 
administration has a tepid response to the brutal and murderous 
repression of the Iranian people when they went into the 
streets to protest the stolen election. A stolen election means 
you have a group of people who are superimposing power over 
others illegitimately. This is not a legitimate government, and 
we can't even say we believe in regime change? I can see why 
the Mullahs now think we are so weak that they can go into 
conspiracies to set off bombs in our Nation's capital.
    Look, all of these years we have known what the Mullahs are 
all about. They have expressed their hatred toward the West and 
toward the United States, their commitment toward and utilizing 
brutality and murder to achieve their ends. And yet we can't 
take them off the terrorist list for just their opposition, and 
much less can we support all of the ethnic groups and the young 
Persians in Iran who are struggling and risking their lives 
against the Mullahs. We haven't provided any material support. 
We haven't provided any weapons. We haven't provided any way 
that they can actually impact the Mullah's dictatorship and 
control in Iran.
    Shame on us. Our Founding Fathers and generation after 
generation of Americans have fought for freedom. We are not 
even willing to take the risk of saying there should be a 
regime change in Iran. Shame on us.
    Chairman Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Connolly is recognized.
    Mr. Connolly. Let me say at the outset, I have been 
impressed, and I know others have been as well, with the fact 
that we now finally have an ambassador in Damascus in 
Ambassador Ford, on behalf of this administration, I would say 
to my friend from California, who has put his life on the line 
to associate with the forces arguing for opening up Syria to a 
democratic form of government. And that is pretty bottom line 
basic.
    So there are many ways for a great country and a great 
power to express its views. Not all of them are pounding the 
dais here in Congress. And there are diplomatic ways and there 
are nondiplomatic ways. And I think the witness given by our 
Ambassador in Damascus is very profound and to be commended and 
I think speaks volumes, and I would regret any imputation of 
the administration with respect to its communications in Syria.
    Sometimes there are ways of trying to avoid strengthening 
those forces we don't want to strengthen. It would be easy, 
clearly, for the United States at this time, for example, to 
outright call for regime change in Iran. My guess is that 
strengthens the hands of the Mullahs at precisely the time 
their hand may be weakening because they can use it to great 
effect pounding about outside interference in domestic politics 
in Iran.
    It is a sensitive matter not easily traversed, and I think, 
as the ranking member said in his opening statement, no 
administration has been as forthright and as forceful in taking 
on Iran at every level and using every lever at its disposal to 
do so. And, again, I would regret any imputation to the 
contrary. It is not true. It is not true.
    We can be impatient about progress and results. I am sure 
that is shared by our two witnesses today and by the Secretary 
of State and by the President. But it is not because for want 
of trying at many, many different levels, not all of which are 
public.
    So speaking at least for this member, I take exception to 
the critique we just heard. It is easy to do, but it in fact 
doesn't reflect the reality on the ground or the reality of 
American diplomacy.
    Welcome both of our witnesses. Madam Under Secretary, let 
me start with you, if I may.
    The Qods force, what is our understanding of its 
relationship to the Government of Iran? And I pray for concise 
answers, because I have a couple more that I want to get to.
    Ms. Sherman. Okay. I will be concise, and if I may defer to 
my colleague.
    Mr. Connolly. Of course.
    Ms. Sherman. We see the Qods force as a very serious part 
and becoming probably a stronger and stronger part of the 
Iranian Government and taking over a lot of the economic sector 
of the Iranian Government and also really directing all of its 
international terrorism.
    Mr. Connolly. And I assume you concur, Mr. Secretary?
    Mr. Cohen. I do.
    Mr. Connolly. So in light of that answer, we can't treat 
this as some rogue element that probably is separated from the 
Ahmadinejad government and the clerical ruling elite.
    Ms. Sherman. We agree.
    Mr. Connolly. What representation have we made through 
third parties or directly to the Iranian Government, given that 
answer, with respect to this incident which the administration 
believe it has convincing evidence for?
    Ms. Sherman. We have--in fact, as Secretary Cohen outlined, 
we have sanctioned the IRGC in a number of instances. And I 
would remind all of us that Iran is already designated as a 
state sponsor of terrorism, and the sanctions that are imposed 
as a result of that are more profound than any other individual 
set of sanctions that we have. So we have made a very clear 
declaration to the Iranian Government that the IRGC and the 
Qods force, which is a part of it, are in fact very tangible 
directors of all that is wrong with Iran.
    We have also, as I said in my opening statement, as part of 
the follow on and to intensify that activity have been asking 
governments in reaction to this assassination attempt as well 
as to previous behavior, to not allow the Qods force to operate 
in their country.
    Mr. Connolly. My time is up. But, Madam Chairman, I point 
out for the record since we are having this series of hearings 
we had a witness the other day from Brookings who said it was 
premature and inappropriate to assign responsibility and blame 
to the Iranian Government at this time; and we have just heard 
official United States Government testimony saying, actually, 
no, it isn't. It is perfectly appropriate, and it is time to 
assign blame, given the relationship of the Qods force to this 
government.
    I yield back.
    Chairman Ros-Lehtinen. No doubt. Thank you so much.
    Mr. Rivera is recognized for 5 minutes.
    Mr. Rivera. Thank you, Madam Chair.
    My questions are for Secretary Sherman.
    My understanding has always been that it is the policy of 
this Nation not to negotiate with terrorists. I don't know if 
you saw the AP story today: U.S. offered Cuba swap for 
American. And I will read briefly. It says the United States 
offered to let a convicted Cuban spy return home in exchange 
for the release of an imprisoned American, but Cuba rebuffed 
the offer, U.S. officials who spoke on condition of anonymity 
because of the sensitivity of the issue said. Says the Gross-
Gonzalez swap--you mentioned Alan Gross earlier--was raised by 
former New Mexico Governor Bill Richardson as well as by senior 
U.S. officials in a series of meetings with Cuban officials.
    Richardson traveled to Cuba last month seeking Gross' 
release. He also told Cuban Foreign Minister Bruno Rodriguez 
that the U.S. would be willing to consider other areas of 
interest to Cuba. Among them was removing Cuba from the U.S. 
list of state sponsors of terrorism, reducing spending on Cuban 
democracy promotion programs, authorizing U.S. companies to 
help clean up oil spills from planned offshore drilling, 
improving postal exchanges, and ending a program that make it 
easier for Cuban medical personnel to defect to the United 
States.
    So my question is a yes-or-no question. Has anyone in the 
Obama administration discussed the possibility of making any 
concession or accommodation whatsoever to the terrorist Castro 
dictatorship in exchange for the release of American hostage 
Alan Gross? Yes or no.
    Ms. Sherman. What I can say, Congressman, is that, as I did 
earlier, even though I conflated two things, I can confirm that 
a meeting between U.S. officials and the Cubans did take place 
as part of our efforts to get Alan Gross home. I cannot comment 
on what was said in that meeting. But I can say to you, 
Congressman, that we have laws and restrictions, and we will 
obey and follow those laws and restrictions.
    Mr. Rivera. Has anyone talked about making an accommodation 
to the Castro regime for the release of Alan Gross, any 
accommodation whatsoever or concession? Are you telling me yes.
    Ms. Sherman. All I am saying, Congressman, is I can confirm 
that a meeting did take place recently between U.S. officials 
and the Cubans. I cannot comment----
    Mr. Rivera. How recently?
    Ms. Sherman [continuing]. On the content of that, but I 
would be glad to get back to you with any further information.
    Mr. Rivera. How recently? I want it on the record in public 
here. How recently?
    Ms. Sherman. I don't know the exact date, but it was quite 
recent.
    Mr. Rivera. Weeks, days, hours, months?
    Ms. Sherman. I don't know.
    Mr. Rivera. You are the Under Secretary for political 
affairs; is that correct?
    Ms. Sherman. That is correct.
    Mr. Rivera. Days, weeks, months? When was this meeting?
    Ms. Sherman. Quite recent.
    Mr. Rivera. Quite recently. Who authorized Bill Richardson 
to make these offers to the Castro dictatorship?
    Ms. Sherman. I don't know that anyone authorized Governor 
Richardson to make such a trip or to make such concessions. 
    Mr. Rivera. Who interfaced with Bill Richardson before he 
went to Cuba in your administration?
    Ms. Sherman. I don't know that anybody did. It was before I 
became Under Secretary, but I would be glad to check with----
    Mr. Rivera. No, no. The administration confirmed on the 
record that they knew Richardson was going, he was going as a 
private citizen, but that he had had conversations with the 
administration about his visit. Who did he interface with in 
the administration regarding his visit to Cuba?
    Ms. Sherman. I don't know that answer, but I will be glad 
to get it for you, Congressman, very specifically.
    Mr. Rivera. I need that answer. Who would have been 
responsible for these discussions, recent discussions with the 
Castro dictatorship?
    Ms. Sherman. I don't know that answer either, but I will 
get it for you, Congressman.
    Mr. Rivera. You don't know who speaks to the Cuban 
Government on behalf of our--on the Obama administration?
    Ms. Sherman. Congressman, you know, I don't usually use as 
an excuse that I am brand new and recent to this job, but in 
this case unfortunately I have to. I have only been in the job 
less than 3 weeks. So I will get that answer for you and I will 
get it to you promptly.
    Mr. Rivera. It is the policy of this administration not to 
negotiate with terrorists?
    Ms. Sherman. Of course.
    Mr. Rivera. And you recognize that Cuba has been designated 
as a terrorist nation by our Government?
    Ms. Sherman. Yes.
    Mr. Rivera. Well, in the last seconds that I have, I would 
just tell you that this report is outrageous, that we would be 
negotiating with a terrorist regime to release an American 
hostage, negotiating with the same hostage takers that we have 
designated as terrorists. I will yield back.
    Chairman Ros-Lehtinen. Thank you, Mr. Rivera. Mr. Sherman 
is recognized.
    Mr. Sherman of California. A couple of opening comments. I 
agree with Mr. Rohrabacher that this attack demonstrates that 
Iran perceives us as weak and not without good reason. I will 
point out that we have got a number of people in the audience 
with yellow T-shirts that remind us that 450 days ago, a court 
declared that the State Department should carry out the law, 
since they don't carry out the other laws we pass given about 
Iran, it is about time that the judicial branch as well as the 
legislative branch can be frustrated. But in this case, I would 
say that the only time that the administration wants to--seems 
to really want to enforce our terrorist laws with regard to 
Iran or the only time that they can be accused of going 
overboard is with an entity that is an anathema to the 
government that is trying to kill people on American soil.
    I want to focus on the airplanes that Iran Air and Mahan 
Air acquired in the 1970s. These have General Electric engines. 
The engines need repair and are unsafe. A number of our 
colleagues joined with me in a letter saying that the planes 
should be grounded until Iran changes its policy and that we 
should not repair them. Under Secretary Sherman, is it still 
the position of the State Department that we should grant a 
license to repair these planes?
    Ms. Sherman. Congressman, I am going to defer in a moment 
to Under Secretary Cohen, since we have just designated Mahan 
Air in the last day. But indeed, previously we did feel it was 
a responsibility and we may continue to for civilian air 
safety, that we not allow planes to fly where people might die.
    Mr. Sherman of California. Well, obviously there are a lot 
of unsafe planes in the air. It is our responsibility to bring 
those to the attention of world aviation authorities. But it is 
interesting that other unsafe planes aren't being fixed because 
nobody will pay to fix them. We are not going to fix planes in 
Africa, but--or any other poor part of the world. So we don't 
mind there being unsafe planes, except where Iran is willing to 
pay to make them safe. You point out that these are ``civilian 
planes.'' These planes unify the purpose of today's hearing. 
These supposedly civilian planes or at least other supposedly 
civilian planes owned by Mahan Air and owned by Air Iran are 
used to take weapons and thugs from Iran to Syria to kill the 
Syrian people. Now, I would say that is contributing to the 
unsafety of civilians and yet the State Department in a desire 
to once again, I don't know, eviscerate our sanctions is 
supportive of this license. The idea that it is fine for 
thousands of Syrians to die at the hands of Iranian weapons and 
Iranian thugs, that is okay, but we have got to make sure that 
the planes that the thugs use are safe.
    Now, let me turn to another issue. Under CISADA, we 
directed the State Department to prevent--to sanction those 
firms that give Iran the technology to suppress the Internet, 
and there is a Chinese company that is--that we have great 
concerns is just about to do that, recently having sold Iran 
Internet monitoring equipment.
    The State Department, consistent with its policy under the 
Iran Sanctions Act, has a policy of just ignoring the law and 
has refused to identify any item of equipment that would 
trigger this provision of CISADA. I know it has taking you 450 
days to deal with the court decision and this is less time than 
that. Any chance that the State Department will, since this 
committee passed at least at the committee level, a provision 
directing you to do so, identify those items of equipment that 
are sanctionable under CISADA dealing with Internet 
suppression?
    Ms. Sherman. Congressman, we certainly want to follow 
through on the law as it has been executed by you all and 
signed by the President, and I will come back to you with 
further information on that.
    Mr. Sherman of California. Any chance you will get it done 
within 450 days?
    Ms. Sherman. I understand your concern.
    Mr. Sherman of California. Any chance you will get it done 
under the current administration?
    Ms. Sherman. I understand, sir.
    Mr. Sherman of California. Given the fact that Iran is 
engaged in an act of war against the United States, you would 
think that the State Department could act a little more 
quickly. Finally, is there any chance that you are going to 
sanction any multinational corporation under the Iran Sanctions 
Act for Investment in the Iranian oil sector except for those 
companies owned by Iran themselves?
    Ms. Sherman. There have been, in fact, a number of 
sanctions, if I may, let Under Secretary Cohen speak to this 
issue.
    Mr. Sherman of California. Sanctions under the Iran 
Sanctions Act, can you identify one company not owned by Iran 
that was subject to sanctions for investment in the Iranian oil 
sector?
    Chairman Ros-Lehtinen. And maybe we will leave that for 
discussion after the hearing is over. Mr. Manzullo is 
recognized.
    Ms. Sherman. Thank you.
    Mr. Manzullo. Thank you. Welcome, Ambassador. I would like 
you to walk me through this very troubling relationship we are 
having with Iran. Please provide a list of options, starting 
with the most extreme that the United States could take with 
Iran and then moving down the list. Obviously, we are not 
talking about an act of war which would be the most extreme, 
but enlighten me and the American public as to what options are 
out there.
    Ms. Sherman. As you point out, Congressman, the most 
extreme is one that I think none of us want to see, though the 
President has said in instances like this, we always leave all 
options on the table and that is true here. None of us want and 
hope to go there. Short of that, international isolation of the 
most extreme variety is probably what has the most impact on 
any country and that means their inability to have economic 
means, their ability to operate in the world, their ability to 
move in the world, their ability to be recognized in the world, 
their ability to function in the world. And with the help of 
CISADA and other Acts that Congress has passed and executive 
orders that the President has put in place, we now have the 
most robust set of sanctions on Iran in the last three decades. 
That does not mean we have designated everybody who can be 
designated, nor sanctioned everyone who can be sanctioned, nor 
gotten all of the world to do likewise, but that is what we are 
attempting to do. And if I may defer to my colleague to add to 
that.
    Mr. Cohen. I, again, completely agree with Secretary 
Sherman that what remains to be done is to increase Iran's 
economic, commercial and human, as it were, interaction with 
the outside world.
    Mr. Manzullo. If I could stop you right there. What more 
would you want to see done that has not occurred? Because 
obviously, it is not working to everybody's understanding. What 
more needs to be done at this point?
    Mr. Cohen. It is very much the policy of this 
administration to continue to increase, and to ratchet up the 
pressure on Iran in an effort to try and achieve the objective 
that Secretary Sherman laid out. So we are going to, and we 
have been, and we will continue to apply additional pressure on 
Iran, both unilaterally and----
    Mr. Manzullo. Is that sufficient? Is it actually working 
according to what you envision? What more can be done or what 
more can other countries do, what more can the United States do 
to encourage other countries to ratchet it up?
    Mr. Cohen. We are working, and have been working very hard 
to internationalize to the greatest extent possible the 
sanctions on Iran. The United States, as you know, Congressman, 
has had for many years, a complete embargo on Iran. The rest of 
the world is not there yet. We are working with our colleagues, 
whether it is in Europe or in Asia, around the world to try and 
internationalize and extend the isolation of Iran and the 
pressure on Iran. And frankly in response to the most recent 
episode that was revealed this week, using that to illustrate 
to our partners around the world why it is that they should 
take complementary action, to isolate Iran to a great extent.
    Mr. Manzullo. Ambassador Sherman, you had a very specific 
list of accomplishments that occurred in the economic boycott 
of Iran. What do you want to see added to what your testimony 
already has pointed out?
    Ms. Sherman. I am sorry. I didn't hear you, sir. What do I 
want to see?
    Mr. Manzullo. What additional results would you want to be 
able to put into your testimony regarding things that you are 
working on but you have not achieved the desired result yet?
    Ms. Sherman. What we would like to see as Under Secretary 
Cohen said is we would like to see every other country in the 
world take the kinds of actions that we have to isolate Iran. 
We have begun to see that happening. We think an enormous 
amount more can be done. And over weeks and months before I got 
this job, and even in a more accelerated pace since this latest 
horrific plot to assassinate the Saudi Ambassador, we have 
spoken from the President on down to every single capital in 
the world in the last 48 hours, every single capital in the 
world has been touched to, in fact, say this is, as the Under 
Secretary said, this is one more proof point in why you should 
take immediate action to not only condemn this act, but to, in 
fact, keep any Quds Force from operating in your country, look 
at enforcing all sanctions.
    Chairman Ros-Lehtinen. Thank you. Thank you so much. Thank 
you, Mr. Manzullo. Before we adjourn, I neglected to point out 
the pictures that we have on the side of the committee room. 
And I think that they summarize the clear threat that the 
Syrian and the Iranian regimes opposed to U.S. national 
security, to our interests, to our allies as well as the threat 
they pose to their own people as we can see there. They should 
serve as a call to action to compel those regimes now, to end 
their pursuit of nuclear weapons, chemical and biological 
weapons, their advance missile programs, their state 
sponsorship of global terrorism and their gross violations of 
the basic human rights of its citizens. This means we need a 
single focused U.S. approach that identifies these regimes for 
what they are and stops legitimizing Iran by holding onto the 
hope that its leaders will be seduced into doing the right 
thing through engagement or by offering them concessions or 
incentives. And the time is now, we all agree, if we are to 
shut down these regimes, the time is now.
    I thank Ambassador and Mr. Secretary for being here. We 
look forward to further discussions on legislation and 
crippling sanctions. The meeting is adjourned.
    [Whereupon, at 12:07 p.m., the committee was adjourned.]
                                     

                                     





















                            A P P E N D I X

                              ----------                              


             Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Written Responses from the Honorable Wendy R. Sherman, Under Secretary 
for Political Affairs, U.S. Department of State, to Questions Submitted 
   for the Record by the Honorable Brad Sherman, a Representative in 
                 Congress from the State of California


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Written Responses from the Honorable Wendy R. Sherman, Under Secretary 
for Political Affairs, U.S. Department of State, to Questions Submitted 
   for the Record by the Honorable David Rivera, a Representative in 
                   Congress from the State of Florida

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
